              UNCLASSIFIED

     United States Department of State
   and the Broadcasting Board of Governors
       Office of Inspector General




 Memorandum Report

Information Security Program Evaluation



Report Number IT/A-02-06, September 2002




             UNCLASSIFIED
                                           UNCLASSIFIED




                            MEMORANDUM REPORT IT-A-02-06

                           Information Security Program Evaluation

                                              September 2002

In response to the Government Information Security Reform Act (GISRA),1 the
Office of Inspector General (OIG) performed an independent evaluation of the
information security program and practices of the Department of State (Depart-
ment). GISRA provides: (1) a comprehensive framework for establishing and
ensuring the effectiveness of controls over information resources; and (2) a mecha-
nism for improved oversight of federal agency information security programs. The
objective of the review was to determine whether the Department is effectively
implementing key requirements of GISRA, including those areas pertaining to
overall information technology (IT) security management and IT security risk
management. The purpose, scope, and methodology for this review are discussed
in appendix A.



RESULTS IN BRIEF
OIG’s evaluation of the effectiveness of the Department’s information security
program found several key areas of security that still require management attention.
Specifically, OIG concluded that the Department has made slow progress in ad-
dressing information security weaknesses identified in OIG’s September 2001
GISRA report.2 In response to the report, the Department developed a strategy to
address a key deficiency: the lack of certification and accreditation of its informa-
tion systems. However, the Department has not developed a timetable for certifi-
cation and accreditation of all systems, and as of August 2002, only four percent
of its systems had been certified and accredited. Further, according to OIG’s
survey questionnaire, although 72 percent of the Department’s 358 systems are
reported to have security-level determinations, only 15 percent are reported to have
security plans.

    In addition, in FY 2002, OIG reported on information security vulnerabilities
through its reviews of key information management programs. For example, in its
1
    Public Law 106-398, Div. A, Title X, Subtitle G.
2
 Senior Management Attention Needed to Ensure Effective Implementation of the Government Information Security Reform Act
(Report Number 01-IT-M-082, September 2001).

OIG Report No. IT/A-02-06, Information Security Program Evaluation, September 2002                                         1 .

                                           UNCLASSIFIED
                                          UNCLASSIFIED



      February 2002 report3 on the Classified Connectivity Program (CCP), a project to
      implement classified processing capability at overseas missions, OIG reported that
      the Department has not developed a definitive strategy for managing the security
      risks of its CCP deployments. Specifically, OIG reported that the Department had
      not completed the steps needed to certify and accredit the classified Windows NT
      LAN in accordance with federal requirements.

          Finally, at overseas missions, OIG found significant weaknesses in information
      security management. Specifically, OIG determined that the information systems
      security officers (ISSO) generally were not performing all the requisite duties of the
      position. In addition, none of the 11 missions that OIG visited had developed
      information systems security plans. Further, OIG found deficiencies in manage-
      ment, technical and operational controls, thus increasing the risk to mission opera-
      tions.

          This report presents the results of OIG’s audit work in assessing the security
      over the Department’s information technology resources. Recommendations OIG
      made to correct the deficiencies identified in this evaluation either were made in
      prior reports or will be made in reviews currently underway. Therefore, no recom-
      mendations are made in this report.



      BACKGROUND
      Information security is an important goal for any organization that depends on
      information systems and computer networks to carry out its mission. The dramatic
      expansion in computer interconnectivity and the rapid increase in the use of the
      Internet are changing the way the government, nation, and much of the world
      communicate and conduct business. However, without proper safeguards, these
      developments pose enormous risks that make it easier for people and groups with
      malicious intent to intrude into inadequately protected systems and use such access
      to obtain sensitive information, commit fraud, disrupt operations, or launch attacks
      against other computer networks and systems. Further, the number of people with
      computer skills is increasing, and intrusion techniques and tools are readily avail-
      able and relatively easy to use.

         Computer-supported government operations, including those at the Depart-
      ment, are also at risk. Previous General Accounting Office (GAO), OIG, and
      Bureau of Diplomatic Security (DS) reports have identified persistent computer
      3
          Classified Connectivity Program: Progress and Challenges (Report Number IT-A-02-01, February 2002).


2 .                               OIG Report No. IT/A-02-06, Information Security Program Evaluation, September 2002


                                          UNCLASSIFIED
                                       UNCLASSIFIED



security weaknesses that place a variety of critical and mission-essential Depart-
ment operations at risk of disruption, fraud, and unauthorized disclosure. The
Department recognizes that much more must be done to develop fully and ensure
continuity of its systems security program.

    Faced with growing concerns about information security risks to the federal
government, the Congress passed and the President signed GISRA into law in late
2000. GISRA provides: (1) a comprehensive framework for establishing and
ensuring the effectiveness of controls over information resources that support
federal operations and assets; and (2) a mechanism for improved oversight of
federal agency information security programs. Specifically, GISRA requires agen-
cies to:
•   identify, use, and share best security practices;
•   develop an agency-wide information security plan;
•   incorporate information security principles and practices throughout the life
    cycles of the agency’s information systems; and
•   ensure that the information security plan is practiced throughout all life cycles
    of the agency’s information systems.
     In addition, GISRA assigns the agency’s Chief Information Officer (CIO) the
authority and responsibility to administer key functions under the statute, includ-
ing:
•   designating a senior agency information security official who reports to the
    CIO;
•   developing and maintaining an agency-wide information security program;
•   ensuring that the agency effectively implements and maintains information
    security policies, procedures, and control techniques; and
•   training and overseeing personnel with significant responsibilities for informa-
    tion security.
    Finally, in addition to a number of other provisions, GISRA requires each
agency to have performed an independent evaluation of its information security
program and practices. The OIG or the independent evaluator performing a review
may use any audit, evaluation, or report relating to the effectiveness of the agency’s
information security program to do so. The agency is required to submit the
independent evaluation, along with its own assessment, to the Office of
Management and Budget (OMB) as part of its annual budget request.




OIG Report No. IT/A-02-06, Information Security Program Evaluation, September 2002       3 .

                                       UNCLASSIFIED
                                       UNCLASSIFIED



      OVERVIEW OF THE DEPARTMENT’S MANAGEMENT APPROACH
      TO INFORMATION SECURITY
      The Department provided an overview of its management approach to information
      security in its FY 2001 Systems Security Program Plan (SSPP) issued in May 2001.
      The SSPP, which was first developed by the CIO and then issued to the Depart-
      ment, has not been revised to address the GISRA requirements and the more recent
      changes and delegations of authority within the Department. However, the SSPP
      does establish a baseline for the Department to build upon in organizing its infor-
      mation security program. It identifies the authorities and fundamental principles
      guiding IT security in the Department, outlines the IT roles and responsibilities of
      the Department’s bureaus, and briefly addresses the strategies for achieving and
      maintaining a desirable IT security posture for the Department. The SSPP applies
      to all classified, unclassified, and sensitive but unclassified systems throughout the
      Department, its domestic bureaus, offices, annexes, and missions worldwide.



      REVIEW FINDINGS
      Slow Progress in Addressing FY 2001 GISRA
      Report Findings

          The Department has made slow progress in addressing the information security
      deficiencies identified in OIG’s September 2001 GISRA report.4 OIG reported
      that, according to its system survey, nearly 70 percent of the Department’s systems
      were reported to have security level determinations, while only ten percent were
      reported to have security plans, and only five percent were reported to have been
      certified and accredited. OIG recommended that the Department develop a
      strategy and timetable for ensuring that all of the Department’s systems and appli-
      cations address each of the key GISRA system security elements.

          In response, DS and the Bureau of Information Resource Management (IRM)
      developed a strategy aimed at implementing the National Information Assurance
      Certification and Accreditation Process (NIACAP) across the Department, includ-
      ing quick and efficient certification and accreditation of all Department systems,
      networks, applications, domains, and sites. The strategy identifies five major areas
      (education, documentation, applications, sites, and remediation) that need to be

      4
          Senior Management Attention Needed (Report Number 01-IT-M-082, September 2001).


4 .                            OIG Report No. IT/A-02-06, Information Security Program Evaluation, September 2002


                                       UNCLASSIFIED
                                       UNCLASSIFIED



addressed in order to implement NIACAP. However, the Department has not
developed a timetable for certification and accreditation of all systems, and as of
August 2002, only four percent of its systems had been certified and accredited.
To its credit, as part of OpenNet Plus5 implementation, the Department has made
progress in assessing information security at missions and bureaus through its
Connection Approval Process (CAP). So far, 23 bureaus and about 141 missions
have had independent verification and validation (IV&V) of their respective IT
infrastructures, which measures the extent to which each site complies with the
Department’s IT security configuration. Missions must show that they comply with
existing security standards prior to receiving internet web services from OpenNet
Plus. As of September 3, 2002, 20 bureaus and 84 missions have cleared IV&V
requirements, and are connected to OpenNet Plus. According to DS and IRM,
IV&V will provide a baseline for future efforts aimed at full certification and
accreditation.

    In addition, OIG reported that the Department has not developed information
security performance measures to support strategic goals. Performance measures
are key requirements of both the Government Performance and Results Act
(Public Law 103-62) and GISRA. OIG recommended that the CIO ensure that
program managers develop and use performance measures in support of the
Department’s information systems security program. In August 2002, the CIO
issued the Department’s FY 2003 Information Assurance Performance Measures
Plan, and requested that all bureaus and missions implement procedures for collect-
ing and submitting data in accordance with the plan. The CIO directed that collec-
tion of data should begin no later than October 1, 2002.

Department Information Security Weaknesses
Identified in OIG Evaluations

    In FY 2002, OIG reported on information security vulnerabilities through its
audits of key information management programs. Specifically, OIG identified
weaknesses in the management of information security in several information
management programs. Also, in May 2002, OIG notified DS and IRM of a security
vulnerability involving the fielding of OpenNet Plus. Finally, OIG noted that the
Department has not addressed weaknesses in its critical infrastructure protection
program.



5
 OpenNet Plus is the Department’s program to provide worldwide desktop Internet access to its em-
ployees.


OIG Report No. IT/A-02-06, Information Security Program Evaluation, September 2002                  5 .

                                       UNCLASSIFIED
                                         UNCLASSIFIED



      Information Security Issues in OIG Audit
      Reports

          OIG identified additional weaknesses in the Department’s management of
      information security in its reports on three different information management
      programs: Munitions Controls Systems, Classified Connectivity Program (CCP); and
      Central Financial Management System (CFMS). In March 2002,6 OIG reported
      that the Office of Defense Trade Controls (DTC) had not obtained an up-to-date
      determination of the level of security required to protect its export licensing
      system and the proprietary munitions license data that it supports. In addition,
      OIG reported that the DTC’s information assurance strategy has been one of risk
      avoidance; that is, remaining isolated to eliminate the potential for unauthorized
      access or malicious intrusion, rather than prioritization and risk management. OIG
      recommended that DTC assess the security risks of the munitions exports licensing
      process and develop and implement an information security strategy to manage
      those risks effectively.

          Further, in its February 2002 report7 on the CCP, a project to implement classi-
      fied processing capability at overseas missions, OIG reported that the Department
      has not developed a definitive strategy for managing the security risks of its CCP
      deployment. Specifically, OIG reported that the Department had not completed
      the steps needed to certify and accredit the classified Windows NT LAN in accor-
      dance with federal requirements. Lacking certification, there is no central oversight
      or in-depth assessments to identify technical or environmental security risks for the
      CCP program. And, lacking accreditation, there is also no formal acceptance or
      accountability for managing those risks by site managers or chiefs of mission. OIG
      also reported that the Department’s IT contingency planning efforts have not been
      adequate to help safeguard classified information systems and the critical business
      functions they support should unexpected disruptions occur at overseas missions.
      The report estimated that as many as 85 to 90 percent of the missions lack such
      plans.

          Finally, in a May 2002 assessment8 of CFMS, OIG reported that while the
      application functioned in a reasonably secure manner, weaknesses9 in the
      Department’s supporting IT infrastructure increased the risk that unauthorized
      users could gain access to the system. OIG made a number of recommendations to
      improve IT infrastructure security.
      6
       Streamlined Processes and Better Automation Can Improve Munitions License Reviews (Report Number IT-A-02-02,
      March 2002).
      7
          Classified Connectivity Program (Report Number IT-A-02-01, February 2002).
      8
       Information Technology Vulnerability Assessment for the Central Financial Management System (Report Number
      AUD/FM-02-15).

6 .                              OIG Report No. IT/A-02-06, Information Security Program Evaluation, September 2002


                                         UNCLASSIFIED
                                             UNCLASSIFIED



OpenNet Plus Security Vulnerability

    In May 2002, OIG notified IRM and DS of a security vulnerability concerning
the fielding of OpenNet Plus10 throughout the Department. OIG suggested that
the two bureaus determine whether the vulnerability could be fixed or, if not,
conduct a risk assessment and make a risk management decision about OpenNet
Plus implementation. DS responded in a June 2002 memorandum to OIG, which
was not cleared through IRM, suggesting there was no vulnerability, and even if
there was, IRM had made a risk management decision to go forward. Subsequently,
IRM issued a Department notice reminding employees that they should not down-
load software from the Internet that has not been approved by the IT Change
Control Board. As of September 2002, however, IRM had not developed a techni-
cal solution to this problem, or decided to accept the risk that this vulnerability
presents to OpenNet Plus. Further, IRM had not notified the Department’s sys-
tems administrators and ISSOs of this vulnerability and the risk it may pose to
Department operations.

Critical Infrastructure Program Weaknesses
Remain

     The Department has not addressed weaknesses in its critical infrastructure
protection program, which OIG discussed in a June 2001 report.11 The report
assesses the Department’s progress in developing and implementing its cyber-based
critical infrastructure protection plan, as mandated by Presidential Decision Direc-
tive 63. The OIG report contains a number of recommendations to strengthen the
Department’s approach to critical infrastructure protection planning, including:
•       assessing the vulnerability of the Department’s foreign operations to cyber-
        based disruptions;
•       scheduling and conducting security controls evaluations of all minimum-
        essential cyber infrastructures at least once every three years; and
•       ensuring that subsequent critical infrastructure protection plans and vulner-
        ability assessments address minimum-essential interagency infrastructure
        vulnerabilities.
        The Department has not addressed these recommendations, in part because its

9
    The specific details of these security weaknesses are classified.
10
     The specific details of this vulnerability are classified.
11
  Critical Infrastructure Protection: The Department Can Enhance Its International Leadership and Its Own Cyber Security
(Report Number 01-IT-R-044, June 2001).

OIG Report No. IT/A-02-06, Information Security Program Evaluation, September 2002                                         7 .

                                             UNCLASSIFIED
                                 UNCLASSIFIED



      critical infrastructure planning has been in a state of flux. Specifically, in February
      2002, the Under Secretary for Management established a formal Department-wide
      critical infrastructure protection program that is to be managed and provided with
      resources over a multiyear planning period. It is to be aligned with the
      Department’s budget and planning process in order to achieve key objectives for
      domestic and overseas operations. In addition, the Under Secretary assigned lead
      responsibility for formulation and execution of the Department-wide critical
      infrastructure protection program to the Assistant Secretary for Resource Manage-
      ment. Subsequently, in April 2002, the Assistant Secretary for Resource Manage-
      ment established the Tier One Governance Board, which is comprised of senior
      managers who are responsible for the Department’s infrastructure. The board is
      supposed to facilitate the decision making process on policy and priorities related
      to critical infrastructure protection objectives.

      Mixed Results from OIG’s Information Security
      Management Questionnaire

          OIG developed two data collection surveys to determine general information
      about the Department’s information security program. The first questionnaire
      identified the universe of systems operating throughout the Department. It also
      obtained information on IT security plans, assessments, and determinations as
      required by OMB guidance, prior information security laws, and GISRA.

          Specifically, the first questionnaire requested information on the following:
      •   Risk assessments. The identification and analysis of possible risks in
          meeting the agency’s objectives, which form a basis for managing the risks
          identified and implementing deterrents.
      •   Security-level determinations. Assessments that identify the specific
          security levels that should be maintained for IT systems hardware, software,
          and the information maintained or processed on systems.
      •   System security plan. A written plan that clearly describes the bureau or
          mission security program, as well as the policies and procedures that support
          it. The plan and related policies should include all major systems and facili-
          ties and outline the duties of those who are responsible for overseeing secu-
          rity as well as those who own, use, or rely on the entity’s computer resources.
      •   Certification and accreditation. Attestations that an information system
          meets documented security requirements and will continue to maintain the
          approved security posture throughout its lifecycle.



8 .                       OIG Report No. IT/A-02-06, Information Security Program Evaluation, September 2002


                                 UNCLASSIFIED
                                         UNCLASSIFIED


  •   Tests of security controls. Assessments of controls designed to protect
      computer facilities, computer systems, and data stored on computer systems
      or transmitted via computer networks from loss, misuse, or unauthorized
      access.
      According to OIG’s survey results, the Department identified 358 systems and
  applications. Further, the survey indicated that there is significant room for im-
  provement in information security management throughout the Department. As
  Table 1 shows, bureaus reported that 72 percent of their applications had security-
  level determinations. However, bureaus also reported that only four percent of
  their applications are certified and accredited, and only 15 percent of applications
  have security plans. (See appendix B for detailed survey results.)

  Table 1: Department Survey Results on Key Information Systems Security
  Elements


System Requirement                                                     Number              Percentage


Risk Assessment                                                           201                 56
Security-Level Determination                                              257                 72
Security Plan                                                              53                 15
Certified and Accredited                                                   16                  4
Tested Security Controls                                                  164                 46

Note: A total of 358 systems and major applications reported in OIG’s department survey.


      The second questionnaire highlighted five of the Department’s major informa-
  tion systems. OIG selected these systems based on their importance to the Depart-
  ment in the areas of human resources, inventory management, financial manage-
  ment, public diplomacy, and classified information processing. The questions
  pertained to management and operational controls. More specifically, they focused
  on security control reviews, personnel security, contingency planning, data integrity,
  security awareness, training, education, and incident response capabilities.

      Overall, the second questionnaire and follow-up results were mixed. As shown
  in Table 2, bureaus reported that 60 percent of the systems had tested security
  controls, but only 20 percent of the systems had a documented risk assessment.
  Also, bureaus reported that only 20 percent of the systems have a security plan in
  place, and no system in the OIG sample was certified and accredited.




  OIG Report No. IT/A-02-06, Information Security Program Evaluation, September 2002                    9 .

                                         UNCLASSIFIED
                                        UNCLASSIFIED



            Table 2: Major Information Systems Survey Results

System                                        Risk              Security       Security        Certified  Tested
                                           Assessment            Level          Plans            and     Security
                                                              Determined                      Accredited Controls


Classified Network                               No                No             No              No            No

Global Employment Management System              No               Yes             No              No            Yes

Logistics Management Information System          No               Yes             Yes             No            Yes

Public Diplomacy Network                         No               Yes             No              No            No

Regional Financial Management System            Yes                No             No              No            Yes


                On a more positive note, Table 3 shows that all five systems have a trained
            ISSO assigned, and all five systems have automatic virus detection. However, the
            table also shows that only two of the five systems have contingency plans devel-
            oped and updated and only one system has a documented IT system security self-
            assessment.

            Table 3: Major Information Systems Survey Results

 System                                         Trained         Contingency         Automatic         Security
                                                 ISSO              Plans              Virus             Self-
                                                                 Developed          Detection       Assessments
                                                                and Updated


 Classified Network                               Yes                No                 Yes               Yes

 Global Employee Management System                Yes                Yes                Yes               No

 Logistics Management Information System          Yes                Yes                Yes               No

 Public Diplomacy Network                         Yes                No                 Yes               No

 Regional Financial Management System             Yes                No                 Yes               No


            OIG’s detailed review of each of these systems revealed the following:

            Classified Network (ClassNet)

                ClassNet, managed by IRM, is the Department’s major classified information
            processing network. Although the bureau reported that ClassNet is certified and
            accredited, OIG’s evaluation found that the system does not have a documented
            risk assessment, security plan, or tested security controls. Without these key
            information security elements in place the system cannot meet the requirements for



10 .                           OIG Report No. IT/A-02-06, Information Security Program Evaluation, September 2002


                                        UNCLASSIFIED
                                       UNCLASSIFIED



certification and accreditation under NIACAP. IRM has made progress in strength-
ening ClassNet information security through the development of a draft document
describing its critical operations and a draft backup and recovery plan.

Global Employee Management System (GEMS)

    GEMS, managed by the Bureau of Human Resources (HR), is the primary
Department personnel and human resource management system. Although OIG
found considerable information security documentation in place for GEMS, includ-
ing a contingency plan and administrator manuals, the documentation does not
meet the systems security plan requirements cited in OMB Circular A-130. Fur-
ther, OIG determined that neither a formal risk assessment nor a self-assessment
of the system in accordance with NIST guidelines had been completed. Although
HR completed the risk assessment section of its OMB Capital Asset Plan for the
Department’s FY 2003 budget submission, the information was not supported by
an information security assessment.

Logistics Management Information System
(LMIS)

    LMIS, managed by the Bureau of Administration, is a comprehensive logistics
management system. OIG’s detailed review of LMIS showed that although an
informal risk assessment for LMIS had been conducted, it did not satisfy either the
NIST or OMB Circular A-130 guidance. Also, OIG found that no self-assessment
had been completed for the system and that although there was a security plan in
place, it had not been updated since 1998. Security plans should be updated when
any major change is made to the system or at least once every three years during its
usable life.

Public Diplomacy Network (PDNet)

    PDNet, jointly managed by the Bureau of Educational and Cultural Affairs and
the Office of International Information Programs, is the Department’s primary
network for public diplomacy activities. PDNet also provides users with Internet
access. This system had been off-line for several months during FY 2001 following
a successful hacker attack. OIG found minimal information security documenta-
tion in place and determined that no risk assessment or self-assessment had been
conducted. In addition, bureau officials reported in a draft business continuity plan
that the ability to recover fully and instantaneously, while desirable, is not possible



OIG Report No. IT/A-02-06, Information Security Program Evaluation, September 2002        11 .

                                       UNCLASSIFIED
                                 UNCLASSIFIED



       because of funding constraints. Further, the plan states that disaster recovery
       would use off-site tape backups that would have to be recovered on another
       network, which does not exist at this time.

       Regional Financial Management System (RFMS)

           RFMS, managed by the Bureau of Resource Management, is a major financial
       management system currently under development. OIG selected this system for
       further review because GISRA requires that the agency information security plan
       be practiced throughout the system development life cycle, including initial devel-
       opment. OIG found that the bureau developed and submitted draft certification
       and accreditation documentation for precertification review. Also, the bureau has
       developed appropriately the required information security items, such as business
       case and mission statements, system specifications and designs, a configuration
       management plan, system administrator manuals, and a system security authoriza-
       tion agreement.



       INFORMATION SECURITY MANAGEMENT DEFICIENCIES AT
       OVERSEAS MISSIONS
       OIG evaluated information security management at 11 missions during FY 2002.
       OIG found that the Department’s ISSO program was not meeting its objectives and
       that no mission visited had developed a mission-wide information systems security
       plan. In addition, OIG’s technical evaluation identified significant weaknesses in
       mission information security management, technical and operational controls.

       ISSO Program Weaknesses

           At sites visited, OIG found that ISSOs generally are not performing all the
       requisite duties of the position. The Department’s increasing dependence on
       information systems has created the need to ensure that IT system assets, including
       hardware, software, and the information they process, are protected from actions
       that could jeopardize the ability of employees to perform official duties. Although
       much of the responsibility for securing information and IT system assets has been
       placed with the ISSO, in most instances, these duties are assigned on a collateral
       basis and are not the primary duties of the individual designated as the ISSO.
       Instead, under the Department’s 12 FAM 600 guidance, administrative officers at
       missions have assigned the responsibilities and associated duties to Foreign Service


12 .                      OIG Report No. IT/A-02-06, Information Security Program Evaluation, September 2002


                                 UNCLASSIFIED
                                       UNCLASSIFIED



personnel whose primary positions are found in the information management,
regional security, engineering security, and other offices. The collateral nature of
these assignments reduces the time available to perform ISSO duties because the
incumbents view them as secondary. Also, designating information management
and information systems staff as ISSOs may hinder the ability to have independent
monitoring and checking of both systems management and operations.

    At nine of the eleven missions visited, OIG found that ISSOs were not fulfill-
ing adequately their administrative, physical, personnel, system, and technical
responsibilities. At one mission, for example, the designated ISSO had perma-
nently departed, the alternate ISSO was performing none of the ISSO duties and
no records existed to show what the previous ISSO had done. At another mission,
the ISSO had run the Department’s preferred analysis program once in a 12-month
period, creating a six-inch stack of paper that was never completely analyzed.
These analyses should be performed as frequently as determined appropriate for
the specific mission, but not less than quarterly. In all instances, the incumbent
ISSOs made the point that their designation and the associated collateral duties
were secondary to their primary assignment. In one instance, an ISSO identified a
serious problem at the mission concerning the processing of classified information
on unclassified systems and was subsequently counseled about the time taken away
from the ISSO’s usual duties supporting IT operations.

Lack of Information Security Plans at Missions

OIG found that none of the missions visited had developed a mission-wide infor-
mation systems security plan. DS recommends that ISSOs develop individualized
security plans to carry out 12 FAM 600 policies and procedures overseas. At a
minimum, these plans should describe:
•   the mission’s systems, including their names, purpose, location, who will be
    using them, and type of equipment, including peripherals and network con-
    nections;
•   the type of information to be processed and stored, including the sensitivity
    level;
•   the system staff and designated security responsibilities;
•   vulnerabilities and threats to the mission’s IT systems;
•   the security incident reporting chain; and
•   specific measures to reduce IT system risks.



OIG Report No. IT/A-02-06, Information Security Program Evaluation, September 2002     13 .

                                       UNCLASSIFIED
                                 UNCLASSIFIED



           The lack of security planning at the missions is, in part, the result of insuffi-
       cient guidance from the Department and a general belief at missions that IT infor-
       mation security is less important than other elements of security. Officials told
       OIG that developing a mission-wide security plan was unlikely because informa-
       tion management staff were overburdened with the mission’s immediate technical
       and operational concerns. In addition, information management staff told OIG
       that the mission’s culture tended to prioritize physical security, customer service
       and other business issues before IT information security.

           To address this problem, DS has developed draft site Systems Security Authori-
       zation Agreement templates for both the sensitive-but-unclassified and classified
       processing environments. This template, once completed by a mission, will be the
       single source for all information pertaining to the certification and accreditation
       process of a mission or bureau. DS plans to implement this template in October
       2002.

       Results Of Mission Information Security
       Technical Evaluations

           OIG found significant weaknesses in the Department’s management, technical
       and operational controls at missions visited during FY 2002. These weaknesses
       resulted from improperly configured systems, inadequate testing of controls, and, in
       some instances, inadequate understanding of the interrelationships of controls and
       the corresponding system. Thus, at 11 missions visited, IT information systems
       could be compromised through a variety of means that exploited the existing
       controls.

           Controls improve the security of a particular system or group of systems. They
       often require technical or specialized expertise as well as rely upon management
       activities. Management controls include techniques and measures that focus on
       the oversight of the IT security systems and the management of risk for a specific
       system. Technical controls are controls that are automated and rely on technical
       expertise to implement. These controls can provide automated protection against
       unauthorized access or misuse, facilitate detection of security violations, and
       support security requirements for applications and data. The focus of operational
       controls is those controls implemented and executed by people.

           Table 4 below highlights weaknesses identified during OIG’s technical evalua-
       tions and associates the weaknesses with three key issue areas that are the founda-
       tion of the Department’s approach to IT risk management, and are necessary to
       protect mission operations from disruption. Weaknesses in system security proce-


14 .                      OIG Report No. IT/A-02-06, Information Security Program Evaluation, September 2002


                                 UNCLASSIFIED
                                                     UNCLASSIFIED


 Table 4: Technical Evaluation Summary: Weaknesses in Mission Information Security
                                                             CONTROL AREAS

                                     Management Controls               Technical Controls          Operational Controls

              Password and           Inadequate training               Lack of password            Inadequate process for review
              Account                                                  and account management      of password development
              Management             Inadequate enforcement            plan
                                     of standardized requirements                                  Inadequate compliance with
                                                                       Inadequate control for      FAM guidance on password
                                     Inadequate separation of duties   system security account     development
ISSUE AREAS




                                     in account establishment          manager

              Configuration          IT configuration management       Servers and workstations    Centralized asset
              and Change             process, including change         not in compliance with      management insufficient
              Control                control not implemented           Department standards
              Management


              Documentation          No entity-wide security plans     No standard approach for    No Department guidance
                                                                       implementing and managing   that establishes minimum
                                     No documented risk                systems                     security requirements
                                     assessments and other key
                                     documentation




              dures, if exploited, can cause damage to hardware components, software applica-
              tions and the information on the system. For example, as a result of inadequate
              password management, the system could be exploited through penetration or
              impersonation, and IT information resources could be used for unauthorized
              purposes or to launch attacks.



              DEPARTMENT COMMENTS
              OIG discussed the contents of this report with Department officials on August 28,
              2002. Generally, these officials agreed with the issues presented, and noted that
              there is mutual agreement that additional efforts must be made to implement a
              comprehensive information security program.




              OIG Report No. IT/A-02-06, Information Security Program Evaluation, September 2002                                15 .

                                                     UNCLASSIFIED
              UNCLASSIFIED




16 .   OIG Report No. IT/A-02-06, Information Security Program Evaluation, September 2002


              UNCLASSIFIED
                                       UNCLASSIFIED

                                                                                     Appendix A



PURPOSE, SCOPE, AND METHODOLOGY
Section 3535 of GISRA directs each agency to conduct an annual independent
evaluation of its information security program and practices beginning in FY 2001.
The objective of the review was to determine whether the Department is effec-
tively implementing key requirements of GISRA, including those areas pertaining
to overall IT security and risk management.

    To fulfill OIG review objectives, OIG developed two data collection surveys,
which OIG used to obtain general information about the Department’s information
security program. OIG’s first survey determined the Department’s universe of
systems. OIG sent a questionnaire to all identified system managers at the Depart-
ment asking general information security questions. The managers were also asked
to update the Department’s list of information systems to the best of their knowl-
edge. The second survey highlighted five of the Department’s major information
systems. OIG selected these systems based on their importance to the Department
in the areas of human resources, inventory management, financial management,
public diplomacy, and classified information processing. OIG’s questions pertained
to management and operational controls. More specifically, the questions focused
on security control reviews, personnel security, contingency planning, data integrity,
security awareness, training, education, and incident response capabilities. The
questions in the surveys came directly from the National Institute of Standards and
Technology’s Self-Assessment Guide for Information Technology Systems, which OIG
edited to cover risk/vulnerability assessments, security controls, life cycle, certifi-
cation and accreditation, information system security plans, personnel security,
contingency plans, data integrity, documentation, and incident response capability.
OIG did not independently verify the information collected from its first survey,
but did selectively verify key information from responses to its second survey.

    OIG discussed the contents of this report with Department officials on August
28, 2002, and made revisions to the report where appropriate. Staff from OIG’s
Information Technology Office performed this evaluation from February 2002
through July 2002. Contributors to this report were Frank Deffer, James Davies,
Tim Fitzgerald, Robert Taylor, Chris Watson, Matthew Worner and Heather Rogers.
Comments or questions about the report can be directed to Mr. Deffer at
defferf@state.gov or at (703) 284-2715 or to Mr. Davies at daviesj@state.gov or at
(703) 284-2673.




OIG Report No. IT/A-02-06, Information Security Program Evaluation, September 2002                17 .

                                       UNCLASSIFIED
              UNCLASSIFIED




18 .   OIG Report No. IT/A-02-06, Information Security Program Evaluation, September 2002


              UNCLASSIFIED
                                                                           UNCLASSIFIED                                                                                   Appendix B
                                       FY 2002 GISRA Evaluation-Questionnaire Statistics Summary
                                                 Total Number             Systems with               Systems with             Systems with              Systems         Systems with
Department Entity                                 of Systems                  Risk                  Security Level            Security Plans            Certified          Tested
                                                   Reported               Assessments               Determinations                                        and             Security
                                                   by Bureau                                                                                           Accredited         Controls
                                                                        Number      Percent       Number       Percent        Number       Percent   Number   Percent   Number   Percent

Bureau of Administration                                28                 7          25             8           29              6          21         5       18         3        11

Bureau of Consular Affairs                              36                25          69            17           47             15          42         4        11       17       47

Bureau of Diplomatic Security                           46                46         100            46          100              0           0         0        0        46       100

Bureau of Diplomatic Security,                           4                 0           0             1           25              1          25         0        0         0        0
Office of Foreign Missions

Bureau of East Asian                                     1                 0           0             1          100              0           0         0        0         1       100
and Pacific Affairs

Bureau of Educational                                   38                23          61            38          100             11          29         0        0         0        0
and Cultural Affairs12

Bureau of European Affairs                               5                 0           0             0            0              0           0         0        0         0        0

Foreign Service Institute                                2                 1          50             2          100              1          50         0        0         0        0

Bureau of Human Resources                               20                 3          15            18           90              6          30         2       10        19       95

Bureau of Information                                   29                11          38            11           38              8          28         2        7         3       10
Resource Management

Office of Inspector General                              8                 5          63             6           75              0           0         0        0         6       75

Bureau of Intelligence                                   3                 2          67             3          100              2          67         1       33         1       33
and Research

Bureau of International                                  1                 1         100             1          100              1          100        0        0         1       100
Narcotics and Law
 Enforcement Affairs

Bureau of International                                  2                 2         100             2          100              0           0         0        0         0        0
Organizational Affairs

Office of the Legal Adviser                              5                 0           0             0            0              0           0         0        0         0        0

Office of Medical Services                               3                 2          67             3          100              0           0         0        0         2       67

Bureau of Nonproliferation                               2                 0           0             2          100              0           0         0        0         0        0

Bureau of Oceans and                                     5                 5         100             5          100              0           0         0        0         0        0
International Environmental
 and Scientific Affairs

Overseas Building Operations                            29                 1           3            29          100              0           0         0        0         0        0

Bureau of Population,                                    2                 0           0             0            0              0           0         0        0         0        0
Refugees, and Migration

Bureau of Public Affairs                                 5                 1          20             1           20              0           0         0        0         0        0

Bureau of Resource                                      23                 5          22             2            9              2           9         2        9         5       22
Management

Office of the Secretary                                 61                61         100            61          100              0           0         0        0        60       98

Totals                                                 358               201          56           257           72             53          15        16        4       164       46

12
     The Bureau of Educational and Cultural Affairs response also includes the Coordinator of International Information Programs office.


                OIG Report No. IT/A-02-06, Information Security Program Evaluation, September 2002                                                                                      19 .

                                                                           UNCLASSIFIED
UNCLASSIFIED




UNCLASSIFIED
